                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                              Inspection of
                                 Radio Free Europe/Radio Liberty Prague

                                            Report Number ISP-IB-12-43, August 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.


                                               i
                                  SENSITIVE BUT UNCLASSIFIED

                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

       The Office of Inspections conducted this inspection in accordance with the Quality
Standards for Inspection and Evaluation, as issued in 2011 by the Council of Inspectors General
on Integrity and Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector
General (OIG) for the U.S. Department of State (Department) and the Broadcasting Board of
Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

In accordance with the U.S. International Broadcasting Act of 1994 (P.L. 103-236) Section
304(a) (3) (B), OIG is prohibited from evaluating the content of BBG broadcasting entities. The
section, entitled “Respect for Journalistic Integrity of Broadcasters,” states that “The Inspector
General shall respect the journalistic integrity of the broadcasters covered by this title and may
not evaluate the philosophical or political perspectives reflected in the content of broadcasts.”

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                                 i
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                                 ii
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                              Table of Contents

Key Judgments                                           1
Context                                                 2
Executive Direction                                     3
  Morale                                                3
  Organizational Structure                              4
Communications                                          4
Content, Distribution, and Marketing                    5
  Multimedia Strategy, Development, and Training        6
  Marketing and Affiliates                              6
  Central Newsroom                                      7
Maintaining Journalistic Standards                      7
Audience Research and Program Evaluation                8
Resource Management                                     9
  Resource Profile                                      9
Human Resources                                         9
  Training                                             10
  Compensation and Benefits                            10
  Awards and Recognition                               10
  Human Resources Policies                             11
  Human Resources and Employee Concerns                11
Equal Employment Opportunity                           11
Financial Management                                   12
  Procurement                                          12
  Personal Property Management                         13
Management Controls                                    13
New Headquarters                                       13
Technology and Information Management                  13
Corporate Security                                     15
  Program Implementation                               15
  U.S. Embassy Prague Security Support                 15
  Physical Security                                    15
  Emergency Response and Emergency Management          16
  Security Training                                    18
List of Recommendations                                19
List of Informal Recommendations                       20
Principal Officials                                    21
Abbreviations                                          22




                                          iii
                       SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Radio Free Europe/Radio Liberty (RFE/RL), a grantee organization of the Broadcasting
       Board of Governors (BBG), provides accurate and vital news to four regions: Central
       Asia, the Middle East (Iran and Iraq), Eurasia, and Afghanistan and Pakistan (AfPak).
       RFE/RL journalists and the personnel supporting them are passionate and dedicated.

   •   The president of RFE/RL is providing strong leadership during a period of budget
       challenges, resource pressures, and organizational restructuring. Nevertheless,
       uncertainty and change adversely affect morale. While senior management is
       appropriately focused on these and other operational issues, internal communication
       requires constant attention.

   •   RFE/RL’s language services have adopted new ways to reach audiences, including the
       Internet, social media, and input from audience members acting as citizen journalists.

   •   In order to provide good administrative support to all employees, RFE/RL is updating
       policies and procedures.

   •   RFE/RL’s technology division is creative and a source of cost-saving innovations that
       benefit the broader BBG organization.

   •   Although RFE/RL has a contingency security plan, it has not formally designated anyone
       from the information technology staff to provide network security oversight and
       monitoring of systems.

   •   The emergency management program is comprehensive but could improve contingency
       management and response. RFE/RL should focus on exercising and assessing the entire
       range of its emergency action plan, which includes identifying mission essential
       personnel and safe areas and educating RFE/RL employees on their roles and
       responsibilities.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between April 10 and May 14, 2012, and in
Prague, Czech Republic, between May 16 and June 8, 2012. (b) (6)




                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Context
       RFE/RL is a private, non-profit grantee corporation that receives federal funding from
BBG, which is a federal agency with oversight responsibility for all civilian U.S. government-
funded international broadcasting activities. BBG’s broadcasters include the federal entities of
Voice of America and the Office of Cuba Broadcasting (with Radio and TV Marti). In addition
to RFE/RL, BBG’s other grantee broadcasters are Radio Free Asia and the Middle East
Broadcasting Networks, Inc. (Alhurra TV and Radio Sawa).

        RFE/RL’s mission is to provide news and information to countries where a free press is
either banned by the government or not fully established. RFE/RL provides information on radio,
television, and the Internet to more than 24 million people each week in 21 countries and 28
languages 1 throughout the Middle East, Central Asia, the Caucasus, and Eastern Europe. Two-
thirds of its languages are directed to countries or regions with majority Muslim populations.

         RFE/RL began broadcasting over 60 years ago, during the Cold War. Over time, its
geographic priorities and distribution methods have evolved. After the 9/11 terrorist attacks,
RFE/RL began programming to Afghanistan and Pakistan and increased its programming to Iran
and Iraq. RFE/RL continued its strong program in Russia, but is putting greater emphasis on
Internet content and delivery as radio becomes less viable. RFE/RL is increasingly using the
Internet and social media platforms such as Facebook and Twitter along with mobile phones to
convey the news. Through its online presence, it has more contact with audiences that participate
in citizen journalism by sharing videos and other newsworthy information.

        RFE/RL is undergoing a series of changes to streamline operations, increase efficiency,
and target resources to priority audiences. The organization is also facing a potential
consolidation with the two other BBG grantee organizations. These changes, coupled with
ongoing budget uncertainties and the possibility of staffing reductions, contribute to a sense of
unease among the staff. It was in this climate of uncertainty that the new RFE/RL president took
his position in July 2011.

        RFE/RL employs more than 500 people in Prague, including 77 Americans, and 1,100
people worldwide in 19 news bureaus, including freelancers. With its new state-of-the-art
headquarters building and large staff, it is an impressive overseas BBG presence. This inspection
covers RFE/RL’s Prague broadcasting headquarters. It does not include Washington, DC, offices
or the RFE/RL news bureaus throughout its broadcasting area. According to RFE/RL, it is
efficient to have the broadcast center in Prague because it is close to the market. The OIG team
administered a questionnaire to deputy chiefs of mission at 20 U.S. embassies where RFE/RL
news bureaus are located. The overwhelming majority praised the reputation of REF/RL’s
products in their countries and said that their embassies provide support, such as security and
consular assistance, to the RFE/RL journalists at their request.



1
 Albanian, Arabic, Armenian, Azerbaijani, Bashkir, Belarusian, Bosnian, Chechen, Circassian, Crimean, Tatar,
Croatian, Dari, Georgian, Kazakh, Kyrgyz, Macedonian, Montenegrin, Pashto, Persian, Romanian, Russian, Serbian,
Tajik, Tatar, Turkmen, Ukrainian, and Uzbek.
                                              2
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The president of RFE/RL has provided strong leadership during a period of budget
challenges and organizational uncertainty. When he began his tenure in 2011, the organization
had been without a chief executive officer for 6 months and lacked direction; the president took
concrete steps to establish an efficient organizational structure. During his first 6 months, he
talked with numerous people and met individually with each of the 28 language services twice.
As an advocate for RFE/RL’s news bureaus, he had visited five at the time of this inspection and
plans to visit others soon. The president was concerned that RFE/RL executives had not visited
the bureaus regularly. For one bureau he visited, it had been 7 years since his predecessor was
there.

        The president oriented RFE/RL’s focus to Prague where it is geographically closer to the
news bureaus, target time zones, and RFE/RL’s on-the-ground presence. He moved the “center
of gravity” of communications and outreach from Washington to Prague and called it “looking
east rather than west.”

        In accordance with the BBG strategic plan, the president directed a review to identify
target audiences and aligned the mission with the budget accordingly. He reduced overhead by
streamlining duplicative senior staff and consolidating functions. RFE/RL did not replace eight
top management positions. Instead, it distributed responsibility, authority, and accountability to
managers throughout the organization. With a new management team, the president made his
strong support for the broadcasters understood when he said, “All RFE/RL employees fall into
one of two groups, those in the language services and those supporting the language services.”

        His supporters and critics express admiration for his business skills and ability to make
good, timely decisions. They cited his detailed review of the budget and keeping RFE/RL’s focus
on journalism and mission. The result was a yield of $1.2 million that could be used for
important aspects of the mission, such as providing smart phones for RFE/RL reporters,
increasing the ability to hire freelancers in remote locations, and identifying funds to aid RFE/RL
journalists who are threatened, harassed, and jailed because of their work.

        The president’s strongest priority is the safety of RFE/RL staff. Broadcasters often work
in countries hostile to the United States. BBG’s journalists and stringers have been blackmailed,
attacked, imprisoned, and even killed. During the course of the inspection, Belarusian authorities
assaulted and detained an RFE/RL journalist. In some cases, families are also targets. The
RFE/RL president has already taken steps to improve the poor conditions he has seen at news
bureaus, such as authorizing the purchase of additional security-related equipment where needed.

Morale

        The RFE/RL staff is passionate and dedicated to the mission (b) (5)
                          Staff members worry about how the potential reorganization of BBG
and possible merger of BBG grantees (b) (5)
                                                         RFE/RL senior management is aware
of these concerns (b) (5)                   and has endeavored to address them.

                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Organizational Structure

         The president is working with a newly assembled senior staff. RFE/RL has five vice
presidents, three of them in the Prague office. These three assumed their current positions within
the last year, after the president arrived in July 2011. The chief of staff (a vice president)
oversees the offices of communications and government relations, audience research, and
program evaluation. Under the vice president for administration are the offices of the general
counsel, human resources, and corporate security. The chief financial officer (a vice president)
oversees Prague finance from Washington and was promoted to his current position in April
2012. The largest division is that of content, distribution, and marketing, with about 370
employees. It includes the office of multimedia strategy, development, and training; the central
newsroom and information services; the office of marketing and affiliates development; and the
four regional language service groupings.

Communications
        Communications, both internal and external, are an important part of RFE/RL. The
department of communications and government relations has undergone significant personnel
changes over the last year, with the departure of the director and deputy director and the transfer
of a few staff members to other parts of the organization. Remaining communications staff
members are located in Washington and Prague. The Journalist in Trouble initiative, which is
designed to provide advocacy for and assistance to RFE/RL correspondents, is part of the
communications portfolio. The inspection team did not identify any problems with external
communications.

        Internal communications are handled by senior management and the administration
division. A cornerstone of RFE/RL’s internal communications is LibertyNet, RFE/RL’s new
information portal. LibertyNet contains key organizational information, such as policies,
announcements, and innovative practices. RFE/RL also uses email, crossdivisional work groups,
quarterly town hall meetings, and coffee hours with the president to communicate with
employees. Employees are also invited to weekly corporate meetings and have access to those
meeting notes and audio.

      While many of the internal communications efforts of the RFE/RL leadership team have
been well-received, there are still challenges to overcome. Despite management’s efforts,
communications are unevenly received throughout the organization. Employees report that
management’s decisionmaking process is not always transparent. The inspection team counseled
RFE/RL senior management regarding these employee perceptions.

        Some employees express that they do not know the president well; they perceive that he
is not accessible to them, despite his outreach efforts. Since the beginning of this year, the
president has been on the road frequently to attend BBG-related meetings and work with
RFE/RL management and to visit five news bureaus. He has spent an average of 9 days a month
on these trips, including weekends and travel days. Although these business trips take away from
his time to connect with the Prague staff, they are important for RFE/RL’s mission. To
compensate for time away, the president has met with individual language services and hosted

                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

coffee hours to encourage informal interactions. The inspection team encouraged him to continue
these efforts.

Content, Distribution, and Marketing
Language Services

       RFE/RL’s language services are grouped in four regions: Central Asia, Eurasia,
Afghanistan and Pakistan (AfPak), and the Middle East (Iran and Iraq). The vice president for
content, distribution, and marketing and the four regional directors lead the language services.
Language services directors have the autonomy to suggest and implement new programs
pertinent to their markets based on audience research, resources, and staffing.

                                   RFE/RL Language Services
                  Region           Language Service
                                   Kazakh Service
                                   Kyrgyz Service
                  Central Asia     Tajik Service
                                   Turkmen Service
                                   Uzbek Service
                                   Armenian Service
                                   Azerbaijani Service
                                   Balkan Service
                                   Belarus Service
                                   Georgian Service & Echo of the Caucasus
                  Eurasia
                                   Moldovan Service
                                   North Caucasus Service
                                   Russian Service
                                   Tatar-Bashkir Service
                                   Ukrainian Service
                                   Radio Farda (Iran)
                  Middle East
                                   Radio Free Iraq
                                   Radio Free Afghanistan
                  AfPak
                                   Radio Mashaal (Pakistan)
                  Source: RFE/RL

        In accordance with RFE/RL’s strategic plan, the language services are working to
identify target audiences, determine which platforms are used by those audiences, and align
resources. Strategies are tailored to the market realities facing each language service. Services
must decide whether to diversify among platforms (shortwave, FM, and satellite radio;
television; and the Internet) or shift the majority of resources to focus on one predominant
platform.

       While audience feedback is integrated into traditional radio programming, the Internet
provides an expanded range of opportunities to engage audiences and to measure the reach of
RFE/RL reporting. The Internet also enables RFE/RL to provide rich multimedia content and to
                                           5
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

promote citizen journalism with audience members contributing their own photos and videos.
Citizen journalism is most notable in Afghanistan, Belarus, Azerbaijan, Uzbekistan, and
Tajikistan. RFE/RL services are also active on the primary social networks in their markets and
have launched custom-built mobile applications, enabling RFE/RL journalists to connect with
new and younger target audiences.

       The most significant challenge facing the language services is resources. A lack of
resources influences the ability to hire new talent to achieve service goals, train the talent already
on board, fund expansion to new platforms, or pay for new technologies. An equally important
challenge is the safety of journalists in the field. Some language services must also overcome the
challenges of radio and satellite transmission jamming, interference with Web site access and
performance, and pressure on local affiliates.

       RFE/RL is developing short-term solutions to address these challenges, but they may be
inadequate for the long term. RFE/RL’s proposed 4.3 percent cut in its FY 2013 budget is
smaller than that of Radio Free Asia and the Middle East Broadcasting Networks, Inc. However,
52 RFE/RL positions are scheduled to be cut by 2013. RFE/RL is reviewing expenses and
determining where resources could be more effectively used.

Multimedia Strategy, Development, and Training

        The vice president for content, distribution, and marketing has created a new multimedia
department to better integrate multimedia content into RFE/RL’s language services Web sites
and to advise and train services on how best to use the digital tools available to them. At the time
of the inspection, this department, created in April 2012, was conducting a needs assessment to
review operations and respond to current and future needs. Announcement of this new initiative
led to confusion and speculation among various RFE/RL offices about the role of the new
department and how they would be expected to coordinate and interact with it.

       Informal Recommendation 1: The Broadcasting Board of Governors should require that
       Radio Free Europe/Radio Liberty develop and distribute a written strategy for guiding
       multimedia strategy, development, and training department operations and interactions
       with the language services and other relevant offices.

Marketing and Affiliates

       The marketing and affiliates department handles strategic and business development
responsibilities. The 3-person unit is responsible for marketing RFE/RL’s programs and making
agreements with media affiliate stations to use them. With an annual budget of $574,000, the
marketing manager works with news bureaus and local vendors to organize advertising
campaigns and promotions. (The unit’s budget has decreased by $200,000 in the last 2 years.)
The manager makes her best efforts to advertise RFE/RL products in all 21 countries, but in
some places, such as Iran, advertising is impossible. Marketing may be in the form of Internet
and newspaper advertisements, and billboards, or even small handouts like pens, which are used
to generate word-of-mouth advertising. In Central Asia, newspapers and word of mouth are the
most important ways to publicize programming.

                                            6
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The employee in charge of the affiliate relations unit maintains contact with the
International Broadcasting Bureau (IBB) office of marketing and program placement in Prague,
which holds the affiliate contracts, and consults audience research to keep up with affiliates’
needs. Although the unit is small, it is focused.

Central Newsroom

        The central newsroom is key to maintaining quality controls and standards. It provides
news stories in English for the language services and audio clips. The language services also
provide news from their areas to the newsroom and sometimes translate newsroom products to
use on their own programs. In addition, the newsroom produces RFE/RL’s English language
Web site, which contains stories from the language services and original content.

        A recently appointed newsroom director is restructuring the newsroom for more
flexibility and timeliness. Prior to the inspection, RFE/RL’s audience, research, and program
evaluation office conducted a review of the newsroom’s products and usage rates of the language
services. The review, which was the first one conducted in 7 years, concluded that the already
good cooperation between the newsroom and the language services had improved further with
the newsroom’s new leadership and reforms to product formats. There was consensus that the
newsroom is sometimes slow with breaking news, including news coming in from RFE/RL’s
language services. According to the news room, such delays are sometimes necessary to confirm
the accuracy of information from news bureaus or correspondents.

        RFE/RL management indicated that key changes are under way based on the results of
the review. The focus of news products has changed; they are now primarily for the services and
their audiences, not the Western media and think tanks based in Washington. There is reduced
emphasis on Washington and English news and more emphasis on breaking down barriers
between the newsroom and language services.

        At the time of the inspection, RFE/RL was addressing other issues, including how many
journalists use the information services unit, the newsroom’s feedback on stories from the
language services, and improvement in the language services’ communications to the newsroom.
The OIG team encouraged RFE/RL to continue working on its implementation plan to improve
these areas.

Maintaining Journalistic Standards
       BBG’s standards and principles are consistent with the U.S. International Broadcasting
Act of 1994. 2 Credibility is a key RFE/RL measure of performance. It evaluates its credibility
through audience research. In April 2012, the RFE/RL president reaffirmed in a central
newsroom review meeting that he looked to the central newsroom to exercise editorial judgment
and enforce standards.

       There are journalistic guidelines on the organization’s intranet that all staff members are
expected to follow, including procedures for using the Internet and social media. Regional
2
    22 U.S.C. 6202
                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

language service directors are attentive to compliance in each of their language services. The
directors and services discuss editorial issues in daily desk meetings and in meetings between the
regional directors and the head of the newsroom. Before these meetings, the Prague language
services and their respective bureaus hold daily editorial meetings. The regional directors also
serve on RFE/RL’s editorial board. Each RFE/RL product is reviewed by a duty editor before it
goes out. Information from news bureaus is reviewed by an editor in the bureau.

Audience Research and Program Evaluation
        The office of audience research and program evaluation plays a key role in RFE/RL’s
strategic goal of matching programming to core target audiences. It works closely with the
content, distribution, and marketing division. Its three primary activities—audience research,
reporting and Web analytics, and program evaluation—help the language services identify and
engage the right audiences on the right platforms with the right content.

Audience Research

       BBG contracts audience research for all of its broadcasting entities to a private company.
The RFE/RL audience research department works closely with the BBG research contractor to
develop field-based surveys and focus groups that help the language services to better identify,
understand, and reach target audiences. The department analyzes the findings of the research
contractor, along with RFE/RL Web site analytics, to develop reports and recommendations for
each of the services.

        In September 2011, BBG ended a long-running research contract and awarded a new
contract to an internationally known organization in December 2011. Representatives of the
BBG and RFE/RL interviewed by the inspection team lauded the new contract as providing more
flexibility, enhanced coverage, and the ability to tap into a large repository of global research.
The nature of the contract has also provided benefits. The previous audience research contract
was a firm-fixed price vehicle that required RFE/RL to identify all its research requirements at
the beginning of each contract year, allowing little flexibility. The new contract allows RFE/RL
to order research projects as needed.

        There were start-up pains for the new contract in its first months. The first task order
issued by RFE/RL took approximately 2 months to process through the BBG offices in
Washington. This delay can be attributed in part to the absence of a standardized task order
template and a multilayered review and approval process. For example, all task orders on the
contract that exceed $25,000 require the BBG chief financial officer’s approval. BBG is
currently looking into these issues and anticipates making adjustments to the process to
streamline and accelerate task order processing.

Reporting and Web Analytics

       As RFE/RL moves to Internet-based platforms, demand is increasing for analytics on
audiences, content, and the level of engagement achieved. The reporting and Web analytics staff


                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

works with new media and the content, distribution, and marketing division to provide language
services with suggestions for improving Web site performance.

Program Evaluation

        The office of audience research and program evaluation manages annual program
reviews for each language service. Program reviews ultimately feed into the larger BBG-wide
language service review process and focus on the strategy for each language service. The
reviews include a discussion of relevant audience research and reporting, Web analytics and
design, and content and production evaluations. For the content evaluations, the program
evaluation manager works with regional directors to select representative program samples from
each language service. These samples are translated by an outside contractor and subjected to
internal peer review. The results of this peer review have historically been presented at the large
program review meeting. In FY 2012, RFE /RL tested a new approach—splitting off the content
evaluation aspect of the program review into a separate, smaller meeting.

       The inspection team observed two of the smaller content evaluation reviews and
evaluated reports from 19 others. Content critiques were candid, balanced, and included specific
recommendations for improvement. Meetings were marked by a free-flowing exchange of ideas
and observations. Numerous language service directors indicated to the inspectors that they
appreciated the smaller, focused content evaluation meetings. RFE/RL has said that it is likely to
continue using this new model of holding separate, smaller content evaluation meetings and then
simply summarize the meeting findings at the larger program reviews. The inspection team
endorses this approach.

Resource Management
Resource Profile

RFE/RL has the following resources:

• FY 2012 estimated budget - $93,248,000

• A staff of 522 in Prague: 298 expatriates (77 Americans and 221 third-country nationals) and
224 Czech citizens.



Human Resources
        During the OIG inspection, RFE/RL was updating and expanding its human resources
policies and procedures in preparation for including them on the new LibertyNet intranet. These
revised and updated policies will be accessible to all employees. This is an essential first step in
the process of communicating to all employees what the human resources department does and
how it can help.


                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Training

        The human resources department is responsible for most training. Mandatory training for
all employees includes Equal Employment Opportunity (EEO) and prevention of sexual
harassment training as well as the occupational health and safety training mandated by Czech
law. Ninety percent of supervisors and 70 percent of employees are current with EEO training.
Language training, especially remedial English, is targeted toward new hires and almost all of
the news bureaus. Czech is taught to the expatriates and Russian is taught to the support staff.
Job skills and work-related training is generally focused on journalism skills, technical training,
staying current with new technology, and project management training. Journalism training is
included in the new multimedia development and training department. RFE/RL has done an
effective job of maintaining training records so that it can monitor training activity by employee.

        Information based on interviews indicates that both employees and managers feel there is
insufficient funding for training, particularly for managerial training for first-line managers.
Some employees in managerial positions were originally hired for nonmanagerial skills and need
further training for their roles as managers.

       Informal Recommendation 2: The Broadcasting Board of Governors should require that
       Radio Free Europe/Radio Liberty prioritize managerial and supervisory training.

Compensation and Benefits

        RFE/RL has four major categories of employees, each with a different array of
compensation and benefit plans: employees based in Washington; expatriates who are Prague-
based and citizens of a country other than the Czech Republic; Czech citizens and passport
holders or other nationals who are subject to Czech labor law; and locally-hired Americans and
third-country nationals.

       RFE/RL views its compensation schedule for Czech employees as competitive with other
Prague companies. The high retention rate of employees and low turnover lends credence to
management’s views, even though a number of employees in questionnaires or interviews
complained about low compensation and lack of pay increases. RFE/RL has formed a
companywide compensation task force that is working to develop a new compensation system.
The benefits package applies to all categories of employees and appears comprehensive and
extensive.

Awards and Recognition

        RFE/RL has two active performance award programs. Under the first program,
management has traditionally awarded cash to approximately 30 percent of the Prague and
Washington staffs based on performance reviews. The second program provides monthly
recognition awards with small prizes for outstanding journalistic efforts. The OIG team
suggested alternative methods of recognition for RFE/RL, including noncash awards as well as
quick turnaround awards, to acknowledge sustained extra efforts.


                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 3: The Broadcasting Board of Governors should require that
       Radio Free Europe/Radio Liberty expand its awards program to include a broader range
       of noncash and quick-turnaround awards.

Human Resources Policies

      The OIG team received a number of complaints related to the violation of RFE/RL
human resources policies. The team found no concrete evidence to substantiate these complaints.
However, the perception, even by a few employees, that these policies are being violated and that
employees are being treated inequitably contributes to low employee morale.

       Informal Recommendation 4: The Broadcasting Board of Governors should require that
       Radio Free Europe/Radio Liberty clarify and provide training on its human resources
       policies.

Human Resources and Employee Concerns

       Some RFE/RL employees expressed concerns that managers are not open to opposing
viewpoints, that employees with problems have nowhere to turn for assistance, and that
disagreements with management could lead to retaliatory action. The formal RFE/RL complaints
process advises employees to engage the human resources department if they are unable to
resolve complaints through their supervisory chain. However, the OIG team heard from some
employees that they are not comfortable going to the human resources department with their
problems or issues. These employees also claim that they are not confident that the human
resources department will give them independent advice that is in the employees’ best interests.

        RFE/RL recently promoted and relocated from Washington to Prague a proactive human
resources director. The inspection team discussed with the new director the challenges that she
faces in building a foundation of trust with employees. The OIG team discussed with the human
resources department a number of steps that could take to better educate employees about human
resources services: conducting customer service surveys and training, putting timely information
on LibertyNet, and meeting with small groups of employees to educate them about human
resources services.

Equal Employment Opportunity
        RFE/RL is committed to promoting an environment free of harassment and
discrimination. The EEO and prevention of sexual harassment policies are featured in the
orientation packet for new employees and will be featured in the employee handbook, which is
being updated. In 2007, the director of IBB’s Office of Civil Rights conducted EEO training for
the entire RFE/RL staff. Management has made online courses for prevention of discrimination
and sexual harassment available to employees. RFE/RL does not currently have an EEO bulletin
board in a suitably central area, such as the ground-floor cafeteria or fourth-floor snack bar, to
feature information about EEO policies. The new LibertyNet intranet site also presents an
opportunity to feature information about EEO programs.


                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 5: The Broadcasting Board of Governors should require that
       Radio Free Europe/Radio Liberty establish an Equal Employment Opportunity bulletin
       board in a suitably central area and use LibertyNet to promote Equal Employment
       Opportunity goals.

Financial Management
        The vice president of finance is also the chief financial officer. He is located in
Washington, and oversees financial management, which includes financial reporting, budgeting,
accounting, and procurement. The comptroller, who is also the acting director of procurement, is
based in Washington, but oversees the three procurement officers in Prague. The finance director
in Prague, who reports to the chief financial officer, manages accounting (accounts payable,
housing, travel, freelance payments, and the cashier), Czech payroll operations, accounting for
the 19 news bureaus, and the central property and supplies office.

        The OIG team reviewed samples of travel vouchers and other related financial
transactions and found them to be properly conducted, maintained, and reported. The team
observed the cash count of the cashier and found appropriate controls in place.

Procurement

        The three procurement specialists divide responsibility for procurement functions, with
the acting director in Washington approving all sole source and most high-value requisitions. In
FY 2011, Prague processed 405 requisitions totaling $18.6 million. Of these, four were in excess
of $1 million and 14 were between $100,000 and $1 million. Based on a limited review of
purchase orders and purchase card files, the OIG team found that files are adequately maintained
and in most cases contained the three quotes required to determine the best price. Often, in
Prague, only one or two sources for an item or service can be found. As a result, there are a large
number of sole source procurements. RFE/RL runs a modest purchase card program (to prevent
abuse and because there is limited credit card acceptance among Prague vendors), with one card
used by the lead travel clerk for travel purchases only and the other used for travel and other
goods and services.

       During the inspection the acting director conducted prescheduled training for the three
procurement specialists. The training covered best practices, dos and don’ts for Prague
procurement, negotiation skills, ethics, customer service, and Office of Management and Budget
(OMB) Circular A-110 standards. Some other courses were also held for the employees who are
frequently involved in requisitions.

        The scope of this inspection did not include a detailed review of the procurement files. A
limited review of requisition files found that procedures for submitting requisitions before
acquiring goods and services were not being consistently followed.

       Informal Recommendation 6: The Broadcasting Board of Governors should require that
       Radio Free Europe/Radio Liberty implement a procurement process and policies; and
       provide procurement training, especially for employees involved in requisitions.

                                          12
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED



Personal Property Management

       RFE/RL conducts a yearly inventory and reconciliation for the capital inventory. In FY
2011, missing items represented 0.34 percent of an inventory valued in excess of $20 million.
The OIG team conducted a limited review of supplies and the electronic inventory process and
concluded that RFE/FL effectively tracked equipment, computers, and software. Standard
procedures are in place with appropriate separation of duties.

Management Controls
       RFE/RL has implemented management controls in accordance with OMB Circular A-
133. As mentioned previously, management at RFE/RL has mandated a complete review and
update of all policies and procedures, including for procurement, financial management, and
property management. Spot checks of individual records indicated that procedures for time and
attendance records were followed. RFE/RL is attentive to the need for separation of duties and
prevention of waste, fraud, and mismanagement.

        The OIG team reviewed the report of RFE/RL’s outside auditor for FYs 2009 and 2010.
(The audit for 2011 was being processed during the inspection.) The auditor reported that the
consolidated financial statements fairly represented the consolidated financial position of
RFE/RL for that period, in accordance with generally accepted accounting principles. The
auditor also reviewed RFE/RL’s internal control over financial reporting and its compliance with
certain provisions of laws, regulations, contracts and grant agreements, and other matters.

New Headquarters
       The OIG team reviewed the status of conditions discussed in the 2010 OIG report on
REF/RL’s new Prague headquarters. 3 The previous landlord recently sold the building to an
American company. Work has begun to repair punch list items neglected by the previous
landlord using funds freed up by the new lease.

Technology and Information Management
        The technology department is a well-managed operation that meets the needs of more
than 500 users at RFE/RL in Prague. The OIG team reviewed the technical operations, broadcast
engineering, telecommunications and network, information technology, and Internet technology
areas. The department is appropriately staffed with 87 employees who express high morale and
job satisfaction.

       The technology department's yearly budget is $8 million, which includes personnel (50
percent), equipment and software inventory (37.5 percent), and communications expenses (12.5
percent). With only $3 million devoted to maintaining and updating its $30 million equipment

3
 OIG Limited Scope Inspection of Radio Free Europe/Radio Liberty’s New Headquarters in Prague, Czech
Republic, Report Number ISP-IB-10-27, March 2010.
                                            13
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and software inventory, RFE/RL's future challenge is technical infrastructure upgrades on site
and in the field.

         RFE/RL has benchmarked its performance by reviewing the metrics of a commercial
120-channel satellite radio network. It found that its own performance measures are far more
stringent than those of the commercial network. RFE/RL, with 80 channels, has an overall
uptime of 99.99 percent, and the commercial satellite radio has an uptime of 99.95 percent. The
satellite radio network only factors in outages of 20 seconds or more into its uptime calculations
while RFE/RL factors in outages of 5 seconds or more.

        RFE/RL information technology networks are under frequent attack from external
sources. The OIG team learned that cyber attacks occur daily. There are usually one or two big
targeted attacks a year.

        In 2009, a routine audit by an independent entity identified the need for segregation of
duties and additional restrictions on access. The OIG team concurs with the findings of the
independent audit. Not all roles and responsibilities for information technology operations staff
have been clearly defined. For instance, because of a tight budget, no one is dedicated as an
information systems security officer. To compensate, RFE/RL technicians regularly perform
information technology physical and system security assessments. An information technology
contingency plan is in place and has been tested. Washington regularly monitors systems for
jamming, and RFE/RL performs network scans for viruses. There are adequate firewalls and
tools in place to protect Web sites against hackers. All of these actions are useful and necessary
but not sufficient because of the increasing worldwide risk of systems attacks, as well as internal
vulnerabilities from possible misuse of RFE/RL information systems.

Recommendation 1: The Broadcasting Board of Governors should require that Radio Free
Europe/Radio Liberty assign a lead information systems security officer to develop security
plans and perform critical security reviews. (Action: BBG)

       In FY 2012, RFE/RL requested an information systems security audit from an
independent entity. This audit was designed as a top-to-bottom review of security-related
systems, policies, and procedures. RFE/RL is considering repeating this audit on an annual or
biannual basis. Given the sustained attacks on RFE/RL information systems, the inspection team
concurs with repeating this review on a regular basis.

        RFE/RL technical innovations create efficiencies and benefit the broader BBG
organization. The technology department’s Internet technology office created Pangea, RFE/RL’s
Web content management system, to meet the needs of a multilingual media organization.
Pangea enables language services to create, publish, and share multimedia Web content using a
single integrated platform. In recognition of the system’s value, other BBG organizations are
adopting Pangea. The roll out of Pangea to the Office of Cuba Broadcasting, the Middle East
Broadcasting Networks, and Voice of America language services will be complete by the end of
FY 2012. Radio Free Asia is not adopting Pangea at this time. This sharing of resources is
consistent with BBG’s new strategic plan, which emphasizes that BBG is “one organization with
many brands” and calls on entities to maximize operational efficiency. The decision to adopt

                                          14
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

      Pangea will enable BBG organizations to benefit from the innovations of RFE/RL’s system and
      reduce possible duplication.

      Corporate Security
      Program Implementation

              RFE/RL’s director of security has worked for RFE/RL in some capacity for more than 11
      years. He reports to the vice president of administration and has direct access to the president of
      RFE/RL when needed. He manages a staff consisting of a deputy, an administrative assistant, a
      liaison officer, an access control technician, and two security technicians and oversees a (b)
      (b) (5)                                                                                      (5)
                         local guard force. He is also responsible for security operations at the news
      bureaus as well as RFE/RL’s Prague and Washington, DC, offices. He or his deputy travels to
      these locations to liaise with host-nation law enforcement officers and to manage the security
      operations in the news bureaus.

              The director of security and his liaison officer have excellent contacts with the city and
      federal police forces. In addition, the director maintains good contacts with foreign embassies in
      the Czech Republic, for example, he receives security-related information from the Japanese,
      British, Italian, French, Israeli, and Canadian embassies.

      U.S. Embassy Prague Security Support

               In accordance with the February 2000 Agreement Between the Department of State and
      the Broadcasting Board of Governors Concerning Overseas Security Support for Federally
      Funded Grantees, Embassy Prague’s regional security officer provides security alerts, reports of
      security incidents, or notices of threats to grantee personnel and facilities. The memorandum also
      states that the regional security officer will report threats to the president of RFE/RL and the
      security director. Personnel from Embassy Prague’s regional security office and the director
      meet as needed to share information. The director reports that he receives outstanding support
      from the embassy.

             One American employee, four locally employed staff members, and two personal
      services contractors, who work for BBG, are located in the RFE/RL facility. These personnel fall
      under chief of mission authority and are subject to a May 2001 memorandum of understanding
      between the Department of State and the Broadcasting Board of Governors that describes
      standards and required levels of security for these types of organizations. Their presence in the
      RFE/RL headquarters building is the primary reason the building, newly occupied in 2009, meets
      Overseas Security Policy Board standards.

      Physical Security
(b) (5)




                                                15
                                    SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED
(b) (5)




          Recommendation 2: (b) (5)



                 The director conducts physical security assessments of the international news bureaus
          under the purview of RFE/RL. He has used the results of those assessments to harden and, in
          some cases, relocate news bureaus.

          Emergency Response and Emergency Management

                    RFE/RL has an emergency management program that is robust and well documented, (b)
          (b) (5)                                                                                        (5)

                                                                                           RFE/RL’s
          disaster recovery plan includes responses to virtually every type of incident and lists members of
          a crisis management committee responsible for decisionmaking. RFE/RL’s technology
          department also has a contingency plan for continuity of operations.
(b) (5)




                                                    16
                                        SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED

          Recommendation 3: (b) (5)



    (b) (5)




          Recommendation 4: (b) (5)



(b) (5)




                                                  17
                                      SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Security Training

        The director of security has developed a security training plan for RFE/RL employees in
Prague. New employees receive initial security training. The director also developed a focused,
streamlined, computer-based series of training modules available on LibertyNet for use by
journalists in the international news bureaus. The content is in both English and Russian. All
RFE/RL employees, whether they are full-time employees or part-time stringers, have access to
security training on LibertyNet.




                                         18
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Broadcasting Board of Governors should require that Radio Free
Europe/Radio Liberty assign a lead information systems security officer to develop security
plans and perform critical security reviews. (Action: BBG)

Recommendation 2: (b) (5)



Recommendation 3: (b) (5)



Recommendation 4: (b) (5)



Recommendation 5: (b) (5)




                                         19
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Broadcasting Board of Governors should require that Radio
Free Europe/Radio Liberty develop and distribute a written strategy for guiding multimedia
strategy, development, and training department operations and interactions with the language
services and other relevant offices.

Informal Recommendation 2: The Broadcasting Board of Governors should require that Radio
Free Europe/Radio Liberty prioritize managerial and supervisory training.

Informal Recommendation 3: The Broadcasting Board of Governors should require that Radio
Free Europe/Radio Liberty expand its awards program to include a broader range of noncash and
quick-turnaround awards.

Informal Recommendation 4: The Broadcasting Board of Governors should require that Radio
Free Europe/Radio Liberty clarify and provide training on its human resources policies.

Informal Recommendation 5: The Broadcasting Board of Governors should require that Radio
Free Europe/Radio Liberty establish an Equal Employment Opportunity bulletin board in a
suitably central area and use LibertyNet to promote Equal Employment Opportunity goals.

Informal Recommendation 6: The Broadcasting Board of Governors should require that Radio
Free Europe/Radio Liberty implement a procurement process and policies; and provide
procurement training, especially for employees involved in requisitions.




                                        20
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Principal Officials

Position                                                     Name     Effective
                                                                       Date in
                                                                      Current
                                                                      Position

RFE/RL President                                   Steven W. Korn      07/2011

VP of Finance and CFO; Corporate Treasurer
(Washington office)                                John Giambalvo      04/2012

VP and General Counsel; Corporate Secretary
(Washington office)                                 John Lindburg      10/2010

VP and Chief of Staff                                 Beth Portale     11/2011

VP of Content, Distribution, and Marketing           Julia Ragona      11/2011

VP of Administration                                     Dale Cohen    11/2011

Director of Corporate Security                             Bill Key    02/2007

Director of Technology                              Luke Springer      03/2007




                                        21
                            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations

BBG             Broadcasting Board of Governors

CCTV            Closed-circuit television

Department      U.S. Department of State

EEO             Equal Employment Opportunity

IBB             International Broadcasting Bureau

OIG             Office of Inspector General

OMB             Office of Management and Budget

RFE/RL          Radio Free Europe/Radio Liberty




                            22
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
